U.S. Department of Labor	               Office of Inspector General
                                        Washington, D.C. 20210


March 8, 2011


John F. Heveron, Jr., CPA, President
Heveron & Heveron Certified Public Accountants
260 Plymouth Ave. South
Rochester, New York 14608

      Recovery Act: Quality Control Review of the Single Audit of PathStone
      Corporation and Affiliates for the Year Ended September 30, 2009

Dear Mr. Heveron:

The purpose of this final report (Report Number 18-11-008-03-365) is to formally advise
you of the results of a Quality Control Review (QCR) the U.S. Department of Labor,
Office of Inspector General conducted of the following audit completed by Heveron &
Heveron Certified Public Accountants under the Federal Single Audit Act (Act) and
Office of Management and Budget Circular A-133 (A-133):

      Single Audit of PathStone Corporation and Affiliates for the Year Ended
      September 30, 2009

The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

The major programs included in our review were:

DOL Major Programs Reviewed
                                                          Catalog of Federal
                                                                  Domestic     DOL Funds
Major Program                                            Assistance Number      Expended
National Farmworker Jobs Program                                      17.264    9,243,299
Senior Community Service Employment Program
(SCSEP)                                                               17.235     5,916,624
American Recovery and Reinvestment Act
(Recovery Act) – SCSEP                                                17.235       498,248
Total DOL Funds Expended                                                       $15,658,171


                       Working for America’s Workforce
                                         –2–


Based on our review of the audit documentation related to the programs above, we
determined that the audit work performed was acceptable and met the requirements of
the Act and A-133. No follow-up work is required and there are no issues that require
management’s attention.

Since our review included Recovery Act funds, we are required by the Recovery Act to
post this report on our website www.oig.dol.gov and link it to the Recovery
Accountability and Transparency Board’s website www.recovery.gov.

If you have any questions concerning the results of the QCR please contact Melvin
Reid, Director, Office of Audit Quality Assurance, at (202) 693-6993.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

cc: Kevin G. Ryck, Chief Financial Officer, PathStone

   Ms. Judith A. Fisher, Director, Division of Policy, Review, and Resolution
   Employment and Training Administration
